Report No. D-2009-056       February 23, 2009




        Personal Commercial Solicitation
of Military Personnel: Impact of DoD Actions
            and Public Law 109-290
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
 ----------




                                                   GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704


                                                                                February 23, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
                 READINESS
              COMMANDANT OF THE MARINE CORPS
              ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              NAVAL INSPECTOR GENERAL

SUBJECT: Personal Commercial Solicitation of Military Personnel: Impact of DoD Actions and
         Public Law 109-290 (Report No, D-2009-056)


We are providing tbis report for your information and use, No written response is required,
Therefore, we are publishing this report in fmal form,

We appreciate the courtesies extended to tbe staff, Questions should be directed to me at (703)
604-8866 (DSN 664-8866). If you desire, we will provide a formal briefing on the results.
                       Report No. D-2009-056 (Project No. D2008-D000LD-0058)
                                          February 23, 2009

               Results in Brief: Personal Commercial
               Solicitation of Military Personnel: Impact of
               DoD Actions and Public Law 109-290
                                                         involving inappropriate sales practices
What We Did                                              considered to be deceptive or unfair involving
As required by Congress, this is our second report       Service members. The insurance companies
on the impact of revisions to DoD Instruction            must show cause why the State should not take
1344.07, “Personal Commercial Solicitation on            action. Further, State Insurance
DoD Installations,” and the reforms included in          Commissioner’s Offices in Georgia and Illinois
Public Law 109-290 on the quality and suitability        have taken action against an insurance company
of sales of securities and insurance products to         and an agency for their inappropriate sales
junior enlisted members of the Armed Forces.             practices in violation of State regulations.

                                                         At the six installations we visited, the internal
What We Found                                            controls we reviewed over the commercial
Our review of the impact of mandated reforms             solicitation process on base were adequate; we
on the suitability of financial products marketed        identified no internal control weaknesses.
to Service members at three European
Command installations and two stateside                  Conclusions
military installations found no instances of sales
of inappropriate life insurance or financial             P.L. 109-290 and the revised DoD Instruction
products to Service members while on base.               1344.07 appear to be having the desired impact
                                                         of reducing instances of sales of inappropriate
In fact, we found that DoD and some State                life insurance or financial products to Service
insurance regulators were identifying and taking         members. Although we did identify instances of
actions against inappropriate sales practices to         inappropriate sales outside military installations,
Service members off base. For example, during            we found that the Florida Office of Insurance
our review we found while following up on the            Regulation was taking action against these
possible sale of inappropriate life insurance            inappropriate sales practices made in violation
products at the Naval Air Station Pensacola, that        of State regulation. This report contains no
inappropriate sales were taking place off base.          recommendations because, at the sites visited,
Discussions with U.S. Navy Region Legal                  we found no inappropriate sales on base and that
Service Office determined that it had                    the DoD and State regulators were identifying
investigated and issued a report on February 15,         and taking action against inappropriate sales.
2008. The report concluded that a financial
agency was in direct violation of Florida’s              Management Comments
Military Sales Practice Rule. It recommended             The Under Secretary of Defense for Personnel
actions be taken immediately to lessen the harm          and Readiness, Military Community and Family
being done to the Sailors and Marines on Naval           Policy was in verbal agreement with the facts in
Air Station Pensacola.                                   the report and as there were no
                                                         recommendations, no comments were required.
In addition, the Florida Office of Insurance             Therefore, we are publishing this report in final
Regulation issued an order on May 8, 2008, to            form.
two life insurance companies for their activities
                                                     i
             Report No. D-2009-056 (Project No. D2008-D000LD-058.000)
                                 February 23, 2009


Recommendations Table
Management                            Recommendations Requiring Comment
                                      None




                                 ii
Table of Contents

Results in Brief                                                                     i

Introduction

       Objective                                                                    1
       Background                                                                   2
       Review of Internal Controls                                                  3


Finding. Solicitation of Military Personnel for Life Insurance or Other Financial
Products                                                                             5

Appendices

       A. Scope and Methodology                                                     11
          Prior Coverage                                                            12
       B. Military Sales Practices Model Regulation                                 13
Introduction
Public Law 109-290, “Military Personnel Financial Services Protection Act,”
September 29, 2006, requires the DoD Inspector General to study and report on the impact
of mandated reforms on the suitability of financial products marketed to Service members.

The public law required the Inspector General of DoD to submit an initial report on
September 29, 2007, to the Committee on Banking, Housing, and Urban Affairs of the
Senate and the Committee on Financial Services of the House of Representatives and to
submit follow-up reports to those committees on December 31, 2008, and
December 31, 2010.

The results from our first report identified that the reforms contained in Public Law 109-
290 and the impact of revised DoD Instruction 1344.07 have been partially effective in
reducing commercial solicitations of inappropriate life insurance products to military
personnel by sales agents on the DoD installations visited. The Military Services are
providing personal financial readiness training. However, commercial solicitations and
sales of inappropriate life insurance products are occurring off base. As a result, junior
enlisted Service members are still purchasing high-cost life insurance products that are
considered inappropriate and may threaten their financial stability.

In our prior report, we recommended that the Under Secretary of Defense for Personnel
and Readiness develop standards for additional consumer awareness education to junior
enlisted Service members to identify inappropriate life insurance practices and products
and issue policy that requires installations to report both on-base violations of DoD
Instruction 1344.07 and off-base insurance products and sales solicitation practices
directed at junior enlisted Service members and considered inappropriate to the State
Insurance Commissioner’s Office.

We also recommended that the Chief of Naval Operations, the Commandant of the Marine
Corps, the Commanding General of the U.S. Army Training and Doctrine Command, and
the Air Force Commander of the Air Education and Training Command ensure that the
financial educational programs provided to junior enlisted Service members include
consumer awareness education to enable them to identify inappropriate life insurance
practices and products.

Objective
The objective of the audit was to review the effects of DoD Instruction 1344.07, “Personal
Commercial Solicitation on DoD Installations,” March 30, 2006, and the reforms included
in the law on the quality and suitability of sales of securities and insurance products to
members of the Armed Forces. The focus of this, our second audit, was at sites outside
the continental United States. In addition, we were requested by the Inspector General to
review two military installations where troops were deploying. We selected Fort Bliss
and Camp Pendleton. See Appendix A for our scope and methodology and prior
coverage.


                                             1
A third review of this subject area is required by December 31, 2010. For the scope of
this third review, we plan to follow up on actions taken on recommendations from our
first report and to look into the extent to which inappropriate life insurance and other
financial products solicitations are taking place outside of U.S. military installations.

Background
This audit was performed in accordance with Public Law 109-290 (P.L. 109-290),
“Military Personnel Financial Services Protection Act,” September 29, 2006, Section 14.
P.L. 109-290 requires a study and report by the Inspector General of the DoD.

       (a) STUDY.—The Inspector General of the DoD shall conduct a study on the impact of DoD
              Instruction 1344.07 (as in effect on the date of enactment of this Act) and the
              reforms included in this Act on the quality and suitability of sales of securities and
              insurance products marketed or otherwise offered to members of the Armed Forces.

       (b) REPORTS.—Not later than 12 months after the date of enactment of this Act, the
              Inspector General of the DoD shall submit an initial report on the results of the study
              conducted under subsection (a) to the Committee on Banking, Housing, and Urban
              Affairs of the Senate and the Committee on Financial Services of the House of
              Representatives, and shall submit followup reports to those committees on
              December 31, 2008 and December 31, 2010.

The congressional findings section of the law stated that the members of the Armed
Forces perform great sacrifices in protecting our Nation. The intent of Congress was to
ensure that Service members are offered first-rate financial products. Congress found that
financial services companies offered members of the Armed Forces high-cost securities
and life insurance products and engaged in abusive and misleading sales practices. Such
practices included the mutual fund contractual plan and life insurance products being
marketed as investments. Congress also found that certain life insurance products being
offered to members of the Armed Forces were improperly marketed as investment
products, providing minimal death benefits in exchange for excessive premiums that are
front-loaded in the first few years, making them inappropriate for most military personnel.

Automatic Insurance Coverage for Service Members
All Military Service members are automatically enrolled in the Servicemembers’ Group
Life Insurance program upon joining the Armed Forces. This program is federally
sponsored and costs $3.50 per $50,000 in group term life insurance coverage, plus a
mandatory $1 per month for Traumatic Injury Protection. In addition, at no cost to
Service members, in the event of their death while on active duty, members’ beneficiaries
receive $100,000.

State Responsibilities
State government entities are the primary regulators of insurance companies and agents.
The State insurance regulators oversee the insurance companies and agents in several
ways, including reviewing and approving products for sale and examining the operations
of companies to ensure their financial soundness and proper market conduct. Although


                                                   2
each State has its own insurance regulations and laws, the National Association of
Insurance Commissioners coordinates the regulation of multi-State insurers. The
Association provides a national forum for addressing and resolving major insurance issues
and for allowing regulators to develop consistent policies for regulating insurance when
appropriate.

As mandated by P.L. 109-290, the Association developed a Military Sales Practices model
regulation that sets forth standards for commercial solicitation and life insurance products
both on and off military installations. It protects Service members by declaring certain
actions as false, misleading, deceptive, or unfair. As of December 31, 2008, 44 of 50
States, the District of Columbia, and Puerto Rico had adopted or enacted legislation and
accepted the model regulation. See Appendix B for selected standards of the Military
Sales Practices model regulation.

Review of Internal Controls
At the six installations visited, the internal controls we reviewed over the commercial
solicitation process on base were adequate; we identified no internal control weaknesses.




                                             3
Finding. Solicitation of Military Personnel for
Life Insurance or Other Financial Products
Our second review of the impact of mandated reforms on the suitability of financial
products marketed to Service members at three European Command installations and two
stateside military installations found no instances of sales of inappropriate life insurance
or financial products to Service members while on base. In fact, we found that DoD and
some State insurance regulators were identifying and taking actions against inappropriate
sales practices to Service members. We make no recommendations in this report
because, at the sites visited, we found no inappropriate sales on base, and the DoD and
State regulators were identifying and taking action against inappropriate sales off base.

DoD Policies
It is DoD policy to safeguard and promote the welfare of DoD personnel as consumers by
setting forth a uniform approach to the conduct of all personal commercial solicitation and
sales to them by dealers and their agents. To that end, DoD revised and reissued DoD
Instruction 1344.07, “Personal Commercial Solicitation on DoD Installations,” on March 30,
2006. The Military Services have finalized their supplemental guidance to the DoD
Instruction.

The Instruction requires that solicitors of financial products, such as life insurance,

    •   are duly licensed to sell the product,

    •   have an appointment with the individual to be solicited, and

    •   provide Service members with a personal commercial solicitation evaluation
        form and a written reminder that free legal advice is available on the base from
        the Office of the Staff Judge Advocate.

An additional requirement to solicit on overseas U.S. military installations is that
companies selling financial products be registered with the Principal Deputy Under
Secretary of Defense for Personnel and Readiness before agents may apply for a permit
to solicit. The Deputy Under Secretary of Defense for Military Community and Family
Policy forwards the list of approved companies to overseas combatant commands. In
addition, the Principal Deputy must maintain a list of all State Insurance Commissioners’
points of contact for DoD matters and forward this list to the Services. The Instruction
also outlines prohibited practices for soliciting on DoD installations.

The Principal Deputy must maintain the Personal Commercial Solicitation Report and
make available to installation commanders the current master file of all individual agents,
dealers, and companies who had their privileges withdrawn at any DoD installation.
When individuals and companies have had their privileges to solicit on base suspended,
the Services are required to report this up their chain of command. The Services’
headquarters then report the information to the Principal Deputy for inclusion in the


                                                 5
Personal Commercial Solicitation Report. This report identifies the company or agents
barred, the reason for debarment, and the length and location of debarment. The
Principal Deputy monitors and posts the report on the Commanders Page quarterly at
www.commanderspage.com, giving all installations information on barred companies
and agents. The Commanders Page is a Web site for news and information pertaining to
personnel and readiness for flag and general officers.

Finally, the Instruction requires installation commanders to report concerns or complaints
about the quality or suitability of financial products, as well as the marketing methods
used to sell them, to the appropriate State and Federal regulatory authorities.

Military Services’ Updated Policies
All of the Military Services have updated their personal commercial solicitation policies
to implement the changes to DoD Instruction 1344.07.

   •   The Army published revised policies in Army Regulation 210-7, “Personal
       Commercial Solicitation on Army Installations,” on October 18, 2007.

   •   The Air Force published Instruction DoDI1344.07_AFI36-2917, “Personal
       Commercial Solicitation on Air Force Installations,” on November 7, 2007,
       implementing and extending the DoD Instruction.

   •   The Navy issued SECNAVINST 1740.2E, “Solicitation and the Conduct of
       Personal Commercial Affairs on Department of the Navy Installations,” on
       July 12, 2008. The Marines follow the Navy Instruction.

All of the Services’ policies include requirements from the DoD Instruction and provide
additional Service-specific requirements for personal commercial solicitations on the
installations. For example, the Army guidance requires that solicitors perform a
suitability assessment before recommending securities to soldiers.

No Indication of Solicitations of Financial Products at
U.S. European and Two Stateside Military Installations
We did not find sales of inappropriate life insurance or financial products at the three
U.S. European Command and two military installations that we visited within the
Continental United States.

U.S. European Installation Visits
We met with U.S. Army Installation Management Command-Europe, which processes
requests for Army and Air Force theater-wide permits. Agents and the companies that
employ them are vetted against the Office of the Secretary of Defense’s approved list for
U.S. European Command and the list of banned agents and companies, which is on the
Commanders Page Web site. Installation Management Command-Europe also validates
life insurance or securities brokerage licenses by contacting the licensing agencies or
checking on-line. Once agents have a theater-wide permit, they must get an installation-


                                             6
level permit to solicit on an Air Force or Army installation. The Naval Support Activity
Naples does not require a theater-wide permit.

We visited U.S. Army Garrison Kaiserslautern, Germany; Ramstein Air Base, Germany;
and Naval Support Activity Naples, Italy, to review controls over commercial
solicitations. At Kaiserslautern, only one life insurance or financial product agent had
requested and received a commercial solicitation permit in the last 2 years. Ramstein had
one permit pending approval, and Naples had no current permits.

Naval Support Activity Naples had received a complaint about a tax-preparation agent
working at the Navy Exchange who was also trying to sell financial products without the
proper authorization. Installation personnel spoke with the agent and instructed him not
to try to sell the products without the proper authorization. We found no evidence of any
sales of financial products to sailors. At both Ramstein and Kaiserslautern, officials were
not aware of any complaints dealing with life insurance or financial products.

Our review of allotment data from each installation showed no indications of
inappropriate sales of life insurance or financial products. Finally, our review of the
financial training provided to junior enlisted Service members showed that the three
installations were providing some personal financial training, but could improve their
consumer awareness training to alert Service members about inappropriate practices and
products.

Overall, the processes to approve commercial solicitation permits at U.S. Army Garrison
Kaiserslautern, Ramstein Air Base, and Naval Support Activity Naples were adequate.
We reviewed areas immediately outside the installations and did not find any
inappropriate solicitation for life insurance and financial products. Further, our review
did not find internal control weaknesses for the personal commercial solicitations on
base.

Visits to Fort Bliss and Camp Pendleton
We visited Fort Bliss Army Base and the Marine Corps Base Camp Pendleton. At Fort
Bliss and Camp Pendleton, we did not find sales of inappropriate life insurance or
financial products.

We interviewed officials to review the commercial solicitation approval process,
commercial sponsorship approval process, number of approved commercial solicitors,
and financial training provided to junior enlisted Service members. We compared the
names of companies and agents that have current permits to solicit at the installations,
one at Fort Bliss and eight at Camp Pendleton, to the list on the Commanders Page Web
site of barred companies and agents, and none was listed. At Fort Bliss, the allotment
data we reviewed showed no indication of inappropriate life insurance sales. Further,
officials we met with were not aware of complaints about life insurance or financial
products at either installation. We reviewed the financial training provided junior
enlisted Service members at both installations and found that although they were



                                             7
providing some personal financial training, they could improve their consumer awareness
training to alert Service members about inappropriate practices and products.

Overall, the processes to approve commercial solicitation permits at Fort Bliss and Camp
Pendleton were adequate. We also reviewed the areas immediately surrounding the
installations and found no inappropriate solicitations of life insurance or financial
products. Further, our review did not find internal control weaknesses for the personal
commercial solicitations on base.

Solicitations of Life Insurance at Naval Air Station Pensacola
and Actions Taken
We visited Naval Air Station Pensacola as a result of our interview with a sailor at Naval
Support Activity Naples who had purchased life insurance with a savings fund product
while stationed at Pensacola. At the time of our visit, Pensacola officials were aware of
and taking appropriate actions regarding issues with life insurance companies on and off
base. They also notified the Florida Office of Insurance Regulation of their reported
findings. Officials from Florida took action against these companies.

Officials at Naval Air Station Pensacola learned about insurance sales practices that
marketed insurance products as investment products from a financial educator with the
Fleet and Family Support Center in Yokosuka, Japan. The financial educator reported
that after he provided a financial briefing to newly arrived sailors, several expressed
concern about investment products they purchased while attending training school at
Pensacola. In e-mail correspondence, the financial educator informed personnel at the
Fleet and Family Support Center at Pensacola of the sailors’ concerns about investment
products.

Subsequently, Naval Air Station Pensacola command appointed an individual from the
U.S. Navy Region Legal Service Office to conduct an investigation. The results of the
investigation were included in a February 15, 2008, report, “Command Investigation Into
The Alleged Commercial Solicitation Violations and Inappropriate Business Practices of
Pensacola Whole Life.” The report documented how Service members were approached
at the local mall or theater to sign up to win a prize. When they “won,” a white van with
a DoD vehicle decal transported them off base to the agency’s office to collect a prize.
The van and its DoD decal were registered to an agent of a debt management agency that
had an office located on base. The report also stated that some Service members were
required to show their common access card and some were also offered referral fees to
bring their friends into the sales office. Further, the report stated that the agency violated
Florida’s Military Sales Practice rule by using or assisting in using a Service member’s
MyPay account or other similar Internet or electronic medium to direct their pay to a
third party for the purchase of life insurance.

As a result of the U.S. Navy Region Legal Service Office investigation and report, Naval
Air Station Pensacola took the following actions:




                                              8
    •   removed the debt management agency from the base and had it listed on the
        July 2008 Personal Commercial Solicitation Report on the Commanders Page
        Web site,

    •   invalidated the installation passes for the debt management agency’s personnel,

    •   barred permanently 10 agents associated with the debt management agency and
        the financial agency from Naval Air Station Pensacola and designated areas of the
        installation,

    •   added to the July 2008 Personal Commercial Solicitation Report on the
        Commanders Page Web site the 10 agents associated with the debt management
        agency, and

    •   sent the February 15, 2008, report to the Florida Office of Insurance Regulation.

While in Pensacola, we met with staff from the Florida Department of Financial Services,
who handle consumer complaints, and staff from the Office of Insurance Regulation, who
handle market investigations. Florida’s Office of Insurance Regulation issued an order
on May 8, 2008, to two life insurance companies for their activities involving
inappropriate sales practices. These sales practices were considered to be deceptive or
unfair and were used on Service members. The action by the Florida Insurance
Regulators was taken as a result of a referral by the Naval Air Station Pensacola. The
insurance companies must show cause why the State should not take action.

The order defined some inappropriate activities employed by the insurance companies,
such as using DoD personnel as representatives in any official capacity with respect to
the solicitation or sale of life insurance to Service members; using or assisting in using a
Service member’s MyPay account to direct a Service member’s pay to a third party for
the purchase of life insurance; or offering or giving anything of value to DoD personnel
to procure their assistance in encouraging, assisting, or facilitating the solicitation or sale
of life insurance to another Service member. As of November 2008, there had been no
resolution of this action by the State of Florida.

At Naval Air Station Pensacola, we held “town hall” meetings with two classes of about
80 students total from the Naval Air Technical Training Center. Most of them knew of or
had contact with the agency soliciting at a kiosk in the local mall, but no one claimed to
have purchased any products from the agency at this location.

In addition, we surveyed 10 sailors at Pensacola, E-4 and below, who had opened
checking account allotments to a third-party bank to pay the life insurance premium. At
the time of our visit, seven had canceled their policy and only one individual provided a
copy of his policy. That policy was for life insurance with a side fund. A side fund,
which is attached to the life insurance policy, is a fund or reserve that accumulates
premium or deposits with interest or by other means. The sailors indicated the initial
contact occurred at the local shopping mall or theater or through a friend.



                                               9
While questionable sales practices existed off base at Naval Air Station Pensacola, both
the State of Florida and the U.S. Navy Region Legal Service Office at the Naval Air
Station Pensacola took appropriate action.

Actions by Other State Insurance Commissioners
In 2008, the State of Georgia cited an insurance company for selling or offering for sale
to Service members a life insurance contract with a side fund. The State of Georgia also
found that the company violated the Georgia regulation 96 times because the regulation
imposes the presumption of unsuitability for each sale or offer for sale of a life insurance
contract that includes a side fund to Service members E-4 and below who have
Servicemembers’ Group Life Insurance coverage. Also, the company assisted the
Service members in using the MyPay system and a third-party bank to set up the
allotment – in violation of Georgia’s regulation. The Georgia Commissioner of
Insurance issued an order on July 1, 2008, that revoked the company’s certificate of
authority to sell life insurance in Georgia.

Our follow-up in March 2008 with the State of Illinois Department of Insurance found
that it was taking action against an insurance agency because it found evidence that sales
practices that violated Illinois’ insurance rule continued. Some of the practices follow.

    •   The insurance agency offered cash prizes for attendance at a life insurance
        solicitation.
    •   The agency submitted, processed, or assisted in the submission or processing of
        an allotment form or similar device used by the U.S. Armed Forces to direct a
        Service members’ pay to a third party for the purchase of life insurance.
    •   The life insurance policy contained a side fund.

These actions could lead to revocation of the licenses of the life insurance agency and
three agents by the Illinois Department of Insurance.

Conclusions
P.L. 109-290 and the revised DoD Instruction 1344.07 appear to be having the desired
impact of reducing instances of sales of inappropriate life insurance or financial products
to Service members. They provide safeguards and promote the welfare of DoD personnel
as consumers by setting forth a uniform approach to the conduct of all personal
commercial solicitation and sales by insurance dealers and their agents on military bases.
We did not find sales of inappropriate life insurance or financial products at the three
U.S. European Command installations and two stateside military installations. Further,
although the results of the Naval Air Station Pensacola’s review and subsequent actions
and the continued efforts by State Insurance Commissioners indicate that questionable
business practices continue, actions are being taken by State officials to address these
inappropriate practices. This report contains no recommendations because, at the sites
visited, we found no inappropriate sales on base, and the DoD and State regulators were
identifying and taking action against inappropriate sales.




                                             10
Appendix A. Scope and Methodology
We conducted this performance audit from November 2007 through January 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusion based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusion based on our audit objective.

We performed this audit as required by P.L. 109-290, “Military Personnel Financial
Services Protection Act,” dated September 29, 2006. We reviewed the effects of DoD
Instruction 1344.07, “Personal Commercial Solicitation on DoD Installations,” March 30,
2006, and the reforms included in the public law at the following installations: U.S. Army
Garrison Kaiserslautern, Germany; Ramstein Air Base, Germany; and Naval Support
Activity Naples, Italy; Fort Bliss, Texas; Marine Corps Base Camp Pendleton, California;
and Naval Air Station Pensacola, Florida. We selected the overseas sites because data
showed that each of them had the largest military population for each Service in the U.S.
European Command. We selected two of the domestic sites because troops deploy from
those installations and the third domestic site because a sailor we interviewed at Naval
Support Activity Naples purchased insurance with a side savings fund while stationed
there. At each location, we:

    •   interviewed officials responsible for processing commercial solicitation permits
        on the installations as well as officials from the payroll, financial counseling,
        legal services, and investigation offices; representatives on the Armed Forces
        Disciplinary Control Boards; and the office responsible for approving
        commercial sponsorships;

    •   examined installation procedures for allowing commercial solicitors on the
        installations and reviewed documents pertaining to current investigations into
        inappropriate commercial solicitation practices and products on the installations;
        and

    •   reviewed the financial training provided to military personnel.

We contacted officials at the Office of the Under Secretary of Defense for Personnel and
Readiness; Defense Criminal Investigative Service; U.S. Army Installation Management
Command; Army Installation Management Command Headquarters-Europe; Office of
Assistant Secretary of the Navy (Manpower and Reserve Affairs); Commander, Navy
Installation Command; Judge Advocate Division, U.S. Marine Corps; Personal and
Family Readiness Division, U.S. Marine Corps; Secretary of the Air Force for Manpower
and Personnel; Judge Advocate General, Headquarters, U.S. Air Force, and Defense
Finance and Accounting Service.

We also contacted personnel at the National Association of Insurance Commissioners,
Office of the Georgia Insurance and Safety Fire Commissioner, Texas Department of


                                            11
Insurance, Florida Office of Insurance Regulation, Florida Department of Financial
Services, California Department of Insurance, North Carolina Department of Insurance,
and Illinois Department of Financial and Professional Regulation, Division of Insurance
to determine their coordination with DoD and their efforts to protect military personnel
from dishonest and predatory insurances sales practices.

Use of Computer-Processed Data
We used computer-processed data to identify and select sailors who were from Naval Air
Station Pensacola who were having allotments taken from their salary to pay for
insurance premiums. The data that we used came from the Defense Finance and
Accounting Service’s Defense Joint Military Pay System. We tested the accuracy of the
data by surveying the sailors to determine whether they bought life insurance. We did
not perform a formal reliability assessment of the computer-processed data.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) have issued three reports discussing
Personal Commercial Solicitation on DoD Installations. Unrestricted GAO reports can
be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. 06-23, “Financial Product Sales: Actions Needed to Better Protect
Military Members,” November 2, 2005

GAO Report No. 05-696, “Military Personnel: DoD Needs Better Controls over
Supplemental Life Insurance Solicitation and Policies Involving Servicemembers,”
June 29, 2005

DoD IG
DoD IG Report No. D-2008-075, “Commercial Solicitation of Military Personnel on
DoD Installations,” April 7, 2008




                                           12
Appendix B. Military Sales Practices Model
Regulation
The National Association of Insurance Commissioners developed a model regulation that
sets forth standards to cover commercial solicitation both on and off military
installations. As of December 31, 2008, 44 of 50 States, the District of Colombia, and
Puerto Rico had adopted or enacted legislation and accepted the model regulation. The
regulation protects military personnel by declaring certain actions by insurers or agents to
be false, misleading, deceptive, or unfair, such as the following from section 7.

       •   Submitting, processing, or assisting in the submission or processing of any
           allotment form or similar device used by the U.S. Armed Forces to direct a
           Service member’s pay to a third party for the purchase of life insurance. This
           includes, but is not limited to, using or assisting in using a Service member’s
           MyPay account.

       •   Knowingly receiving funds from a Service member for the payment of
           premiums from a depository institution with which the Service member has no
           formal banking relationship.

       •   Offering or giving anything of value, directly or indirectly, to DoD personnel
           to procure their assistance in encouraging, assisting, or facilitating the
           solicitation or sale of life insurance to another Service member.

       •   Knowingly offering or giving anything of value to a Service member with a
           pay grade of E-4 or below for his or her attendance at any event where an
           application for life insurance is solicited.

       •   Advising a Service member with a pay grade of E-4 or below to change his or
           her income tax withholding or State of legal residence for the sole purpose of
           increasing disposable income to purchase life insurance.

       •   Offering for sale or selling a life insurance product which includes a side fund
           to a Service member in pay grade E-4 and below who is currently enrolled in
           Servicemembers’ Group Life Insurance is presumed unsuitable unless, after
           the completion of a needs assessment, the insurer demonstrates that the
           applicant’s Servicemembers’ Group Life Insurance death benefit, together
           with any other military survivor benefits, savings and investments, survivor
           income, and other life insurance are insufficient to meet the applicant’s
           insurable needs.




                                            13
